Semiannual
Report to Congress




                     October 2013
                                                                                  October 2013
                                                                                     April 1, 2013 - September 30, 2013




Contents
About DOI and OIG................................................................................................ii

Message From the
Deputy Inspector General.....................................................................................iii

OIG Operating Principles.......................................................................................v

Summaries of Significant Reports and Investigations........................................2

Appendices................................................................................................................27



         Editors                    Contributors                        Images                      Production

                                      Donald Cairns
                                       Joann Gauzza                       DOI
   Kimberly Balderson                 Joel Guenther                       OIG                     Kimberly Balderson
     Robert Gettlin                    Mary Maruca                    Shutterstock
                                      Susan Parrott
                                        Mary Stack
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
employees and volunteers serving in approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-fifth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and
gas leases on millions of acres of the outer continental shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

        The Office of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With less than 260 full-time employees, the organization
is driven by a keen sense of mission and is dedicated to providing products and services that
impact DOI mission results.




                                               ii Back to Top
Message From the
Deputy Inspector General


                                                Yosemite National Park


        In this semiannual report, I am pleased to submit a summary highlighting the Office of
Inspector General’s dedicated and successful work covering the 6-month period from April 1,
2013, through September 30, 2013. Our audit and investigative work focused on high priority
areas, such as energy, climate change, public safety, and theft of Government funds, to promote
excellence, integrity, and accountability within the programs, operations, and management of the
U.S. Department of the Interior.

       Our work in audits, inspections, and evaluations centered on programs related to
energy, health and safety, climate change, and DOI operations. We report on the DOI coal and
offshore renewable energy programs; dam safety and the Hantavirus outbreak at Yosemite
National Park; management of the Landscape Conservation Cooperatives; and the Bureau of
Land Management’s National Operations Center and DOI’s challenges with its e-travel system,
GovTrip.

       Our investigative accomplishments overwhelmingly focused on wrongdoing in
Indian Country, involving theft from tribes and Bureau of Indian Education schools, bribery,
a fraudulent oil lease investment scheme, and embezzlement. We also report on a wholesale
accountability failure by the United States Park Police for its weapons inventory, uncovered by a
review we conducted after receiving allegations of chronic improper weapons management.

        For the first time, we detail the excellent work completed by our Whistleblower
Protection Program. We processed more than 50 complaints during this reporting period and
provide two summaries of advisories sent to the Bureau of Indian Affairs and the U.S. Fish and
Wildlife Service alerting them of accountability failures relative to Whistleblower complaints.
The whistleblower represents one of our most important resources in preventing and detecting
fraud, waste, mismanagement, and threats to public health and safety. We have worked tirelessly
to educate employees and create a culture where retaliation is not only corrected, but resisted.


                                               iii
        Although we have had a Whistleblower Protection Program since 2003, the
Whistleblower Protection Enhancement Act of 2012 has bolstered our efforts at prevention and
holding management accountable through education, investigation, and influence. Other Federal
agencies have reached out to us for guidance on establishing a meaningful program, and we are
honored that our program has served as a positive model for other Government agencies, even as
we strive for continuous improvement and impact for our customers.

        We have much more excellent work underway that will advance our mission to prevent
fraud, waste, and mismanagement and improve the programs and operations of DOI. We look
forward to continuing our work in the next fiscal year to provide objective and actionable reports
to our customers and stakeholders.




                                               Deputy Inspector General




                                                iv Back to Top
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people,
DOI, and Congress. We abide by the highest ethical standards and have the courage to tell our
customers and stakeholders what they need to know, not what they wish to hear. Our core values
help us fulfill our mission and include—

 •     placing highest value on objectivity and independence to ensure integrity in our
       workforce and products;
 •     striving for continuous improvement; and
 •     believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deficiencies relating to the administration of DOI
programs and operations. As a result of OIG fulfilling these responsibilities, Americans can
expect greater accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, and investigations
relating to DOI programs and operations. Our activities are tied to major departmental
responsibilities and assist DOI in developing solutions for its most serious management and
program challenges. These activities are designed to ensure that we prioritize critical issues. Such
prioritizing provides opportunities to influence key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that benefit the public.




                                                 v Back to Top
Summaries of
Significant Reports
and Investigations
Audits, Inspections, and Evaluations
OIG Questions $30 Million in CIAP Grant Funds
OIG audited Coastal Impact Assistance Program (CIAP) grants awarded to the State of
Mississippi to determine whether grant recipients complied with Federal regulations and DOI
policies and to identify grant management challenges that the U.S. Fish and Wildlife Service
(FWS) should address as it assumed responsibility for the program from the Bureau of Ocean
Energy Management, Regulation and Enforcement (BOEMRE). We identified multiple
deficiencies that led us to question almost $30 million in expenditures of CIAP funds.

CIAP provides grants derived from Federal offshore lease revenues to oil-producing States
for conservation, protection, or restoration of coastal areas, wildlife, and natural resources.
The Energy Policy Act of 2005 authorized the Secretary of the Interior to disburse up to $250
million in each of fiscal years 2007 through 2010 to eligible CIAP recipients in the coastal zone
counties, parishes, or boroughs of Alabama, Alaska, California, Louisiana, Mississippi, and
Texas to support coastal restoration activities. In fiscal year 2012, however, over $500 million
remained unobligated; the Office of the Solicitor determined that the Act established a permanent
appropriation, allowing disbursement of funds until they are exhausted. On October 1, 2011,
FWS assumed responsibility from BOEMRE to manage the ongoing grants and award the
balance of CIAP funds.

The State of Mississippi had four eligible recipients: the Department of Marine Resources
(DMR), and Hancock, Harrison, and Jackson Counties. DMR managed the State government’s
portion of CIAP funds, while the county boards of supervisors managed funds allotted to each
county. Together, the four recipients were awarded 100 CIAP grants totaling $99.8 million from
fiscal years 2009 through 2012.

Of the almost $39 million in our sample from 57 grants, OIG identified approximately $30
million in CIAP-ineligible or unsupported costs, as well as funds that could be put to better use.
We identified seven major deficiencies in CIAP management. We found: grants were approved
that did not meet criteria in CIAP legislation; widespread conflicts of interest at DMR in the
administration of CIAP and land purchases; improper land appraisals that diminished CIAP’s
impact; circumvention of sole-source procurement regulations; improper charges to CIAP grants;
improper use of equipment; and various accounting, payroll, and financial issues.




                                                2
We provided 37 recommendations to help FWS resolve systemic deficiencies and personnel
issues that have affected the policies, implementation, administration, management, and
oversight of CIAP. Failure to act on these recommendations could further undermine CIAP
and leave the Federal Government at risk from fraud, waste, and mismanagement of millions
of dollars meant to conserve, protect, and restore American coastal areas, wildlife, and natural
resources.

FWS concurred or partially concurred with all 37 recommendations and is working to implement
or close these recommendations. We consider 20 resolved but not implemented, and 17 closed.




A view from Schooner Pier of the Ohr O’Keefe Museum of Art
(designed by Frank Gehry), a site visited during the OIG audit.




                                                              3
OIG Takes Early Look at Administrative Practices of Landscape
Conservation Cooperatives
To address climate change and other impacts on America’s natural and cultural resources,
DOI oversees a Nationwide network of 22 landscape conservation cooperatives (LCCs) that
collaborate across National and international jurisdictions to conduct large-scale scientific
research. LCCs leverage resources and encourage science-based inquiries to respond to
landscape-level stressors, including climate change.

OIG audited 6 of the 22 LCCs to determine if financial assistance awards, specifically grants
and cooperative agreements, for LCCs are being properly awarded and effectively managed.
Specifically, we found areas of concern that could potentially place millions of dollars at risk
and jeopardize future funding and support for LCC activities overall. For example, we identified
issues related to the effective implementation of internal controls and the selection and awarding
of financial agreements through fair and open competition, as well as oversight and control of
LCCs. The U.S. Fish and Wildlife Service (FWS) demonstrated the primary issues associated
with this audit.

The issues we identified are not new. Historically, we have found grant management to be an area
of concern, particularly with FWS grant processes. Previous internal FWS reviews, as well as
previous OIG reports, have identified similar problems. We noted that DOI policies designed to
strengthen internal control mechanisms developed in response to previous OIG recommendations
were not properly implemented or effectively enforced. As result, DOI is left open to possible
allegations in its Federal award process for not sufficiently supporting competition and
transparency.

To improve LCC management of financial assistance awards, we provided 15 recommendations
to which FWS generally concurred. Our recommendations should help FWS conform its LCC
grants management activities with regulations and DOI policies and maintain LCCs as important
contributors to helping to preserve and manage America’s natural and cultural resources.

BLM Committed To Improve Contracting Practices
OIG evaluated the contracting and contract administration activities of the Bureau of Land
Management’s (BLM) National Operations Center (NOC) because of concerns identified during
other OIG work. Our previous work indicated that the Branch of National Acquisitions within
NOC was not administering contracts according to the Federal Acquisition Regulation or BLM
procurement policies.

In the current evaluation, OIG examined six contract files from 2009 through 2011 to determine
if NOC issued and administered contracts according to Federal regulations and found missing
and incomplete documentation and improper procedures.
                                                4
We attributed these issues to four underlying causes: inadequate documentation of procedures
and standards, poor understanding of roles and responsibilities by contracting officers’
representatives and project officers, inadequate review of contract files and actions taken, and
poor coordination between parties responsible for contract monitoring. NOC continues to face
challenges in its contract administration practices and addressing these challenges would provide
greater assurance that contracts are awarded and administered properly.

We offered four recommendations, to which BLM concurred, to address the need for NOC
to better inform personnel by documenting procedures and improving training on staff roles,
responsibilities, and limitations. We also recommended that NOC implement a records
management plan and periodically review contract files to ensure that files are complete and that
contract actions are proper.

Incomplete Regulations, Policies Hinder Offshore Renewable Energy
Program
OIG evaluated DOI’s Offshore Renewable Energy Program to determine program effectiveness
as offshore renewable energy becomes viable. We reviewed the program’s existing and proposed
projects, budget and resource planning, the process for establishing fees, and planning for the
inspection and enforcement program.

DOI received regulatory authority for offshore renewable energy from the Energy Policy Act of
2005. The Act gave the Secretary of the Interior authority to grant a lease, easement, or right-
of-way for activities on the Outer Continental Shelf that produce, transport, or transmit energy
from sources other than oil or gas, including wind, solar, or hydrokinetic energy. DOI assigned
responsibility for the program to the Bureau of Ocean Energy Management (BOEM), with the
Office of Natural Resources Revenue (ONRR) responsible for collecting fees and revenues
associated with offshore renewable energy.

Offshore renewable energy includes three types of sources: offshore wind energy, ocean wave
energy, and ocean current energy. Offshore wind energy is currently the only type of commercial
offshore renewable energy. To date, BOEM has issued four commercial leases: one off the coast
of Massachusetts to Cape Wind Associates, LLC; one off the coast of Delaware to Bluewater
Wind Delaware, LLC; and two off the coast of Rhode Island and Massachusetts to Deepwater
Wind New England, LLC. No offshore projects have been constructed, but BOEM anticipates
that Cape Wind—which is projected to produce enough energy to power tens of thousands of
homes in Massachusetts—will begin construction in 2014.

Our review found three areas in which DOI can improve program oversight. First, we found
that offshore renewable energy regulations were written when little was known about offshore
renewable energy, leading to gaps and inconsistencies in the regulations.
                                               5
For example, we identified inconsistencies within Federal regulations that cause confusion over
whether BOEM or ONRR is the appropriate entity to which lessees should submit payments.

Second, we found that the program does not have standard operating procedures for establishing
key internal processes such as audit policies, auction policies, and inspection policies and
checklists. Also affected are bonding policies for establishing BOEM’s determination of bond
amounts once constructions and operations plans are approved, and qualification policies
establishing how to determine whether a potential lessee is technically and financially capable of
developing an offshore project.

Finally, we found that Secretarial Order 3299, which initially placed inspection and enforcement
responsibility within the Bureau of Safety and Environmental Enforcement (BSEE), was
amended in 2011 to postpone the transfer of this function from BOEM to BSEE until an increase
in activity justified the realignment, thereby delaying proper separation of duties.

With the advancement of offshore wind leasing and anticipated construction of the first full
offshore wind project in 2014, DOI has an opportunity to strengthen and improve the Offshore
Renewable Energy Program by updating and finalizing regulations, completing and documenting
internal procedures, and transferring the responsibility for inspection and enforcement activities
to BSEE. DOI concurred or partially concurred with our recommendations and has developed
plans to address our concerns.




Offshore wind turbines

                                                6
Improvements to BLM Coal Program Could Return Millions of Dollars
Annually to DOI
OIG evaluated the Bureau of Land Management’s (BLM) coal program to determine if
DOI receives a fair financial return for coal mined on public lands, if BLM’s inspection and
enforcement program operates effectively, and if BLM sufficiently addresses concerns about
venting methane gas from coal mines.

About 40 percent of the Nation’s coal comes from public lands. BLM oversees coal mining
activities on Federal and Indian lands and collects more than $1 billion in bonus and royalty
revenues from coal mining companies each year, a figure that is steadily rising. In fiscal year
2012, bonuses and royalties exceeded $2.4 billion. The program meets the coal industry’s
continuing demand for additional leases and helps satisfy the Nation’s energy needs.

Our evaluation found six weaknesses in the sale process for coal leases that put DOI at risk of not
receiving fair market value for the leases. We found issues with valuing property, inconsistencies
among BLM State offices on how they accept bids, insufficient internal controls for securing data
on fair market value, failure to verify data related to site exploration, lease modifications that do
not return fair market value, and an approval process that hinders timely award of royalty rate
reductions if the mine becomes unprofitable. These factors contributed to lost bonus revenues of
$2 million in recent lease sales and $60 million in potentially undervalued lease modifications.

We also found three issues with BLM’s inspection and enforcement program. First, BLM’s
decentralized organizational structure weakens the program by leaving the individual State
and field offices to administer inspections without consistent guidance. Second, the Notices of
Noncompliance used by coal inspectors to enforce regulations do not have a financial penalty
to deter noncompliance with Federal leases. Inspectors added that they prefer to work with
mining companies informally to resolve noncompliance, an approach that complicates BLM’s
assessment of its inspections’ effectiveness. Finally, BLM does not have a formal rotation policy
to assign inspectors to different mines nor does it have a policy for cross training inspectors to
better plan for succession. We did not identify any concerns with venting methane gas from coal
mines.

We provided 13 recommendations targeted at improving the weaknesses to ensure that DOI
obtains fair market value for all coal leases and improves the coal management program.
Because even a 1 cent-per-ton undervaluation in the fair market value calculation for a sale can
result in millions of dollars in lost revenues, correcting the identified weaknesses could produce
significant returns to the Federal Government.




                                                 7
BIA and FWS Committed to Continuous Improvement of Dam Safety
Controls
In its third evaluation on dam safety, OIG evaluated the emergency preparedness of the Bureau
of Indian Affairs’ (BIA) and the U.S. Fish and Wildlife Service’s (FWS) dam safety programs to
determine the bureaus’ ability to respond to a disaster at high- and significant-hazard dams.

Out of DOI’s total dam inventory of 2,600 dams, BIA is responsible for 900, a great majority of
which are classified as low hazard. BIA is responsible for 136 high- and significant-hazard dams,
which are spread through 8 regions and located on 41 reservations. BIA dams are primarily
earth embankment dams with an average height of 44 feet. FWS has 251 dams, of which 14 are
classified as high hazard. These dams are also earth embankment dams and range in height from
10 to 114 feet.

To ensure safety, high- and significant-hazard dams are required to have emergency action
plans (EAPs). An EAP is a formal, living document that identifies potential emergency
conditions at a dam and specifies actions for dam personnel to follow during an emergency. The
Federal Emergency Management Agency’s “Federal Guidelines for Dam Safety” and DOI’s
“Departmental Manual” require EAPs be reviewed and updated annually and tested every 5
years. In addition to EAPs, BIA also has an early warning system (EWS) in place at some of
its dams. EWS equipment transmits data to the National Monitoring Center where it is checked
against predetermined criteria to determine if dam conditions pose a serious threat to residents
downstream.

OIG identified several areas in which BIA and FWS can improve their emergency management.
Specifically, BIA is the only DOI bureau with dams that does not follow the Federal Emergency
Management Agency guidelines for dam hazard classification. Instead, BIA follows the Indian
Dams Safety Act of 1994, which has different definitions for determining a dam’s hazard
level. In addition, BIA does not have completely developed or fully functioning EWSs and
communication directories at its National Monitoring Center are outdated. Further, BIA has had
some challenges in documenting its EAP exercises and ensuring that EAPs are final and up to
date.

In contrast, we found that FWS does have EAPs in place for the high-hazard dams we reviewed
and routinely exercises these plans. In addition, FWS documents the exercises in after-action
reports. We did find, however, that FWS has no formal written policy requiring it to prepare
after-action reports.

Neither BIA nor FWS maintained documentation verifying equipment and materials mentioned
in EAPs. While we acknowledge that BIA and FWS have no requirement for documenting this
verification, we believe it is an important component of emergency preparedness.
                                                 8
OIG issued 13 recommendations, to which BIA and FWS concurred, pertaining to creating or
updating policies, maintaining all of the required documentation and information, and verifying
locations and existence of equipment and materials to assist BIA and FWS in their ongoing
efforts to improve emergency management procedures at high- and significant-hazard dams.




Coolidge Dam, San Carlos Irrigation Project, BIA




                                                   9
NPS Responsive to Hantavirus Outbreak
In response to a Hantavirus outbreak at Yosemite National Park, OIG inspected the National Park
Service (NPS) at Yosemite to determine if NPS provided adequate concessionaire oversight of
visitor tent cabins involved in the outbreak, which resulted in 10 confirmed cases and 3 fatalities.
Our inspection found that NPS’ oversight was consistent with current policy regarding its review
and approval of concessionaire plans and proposals, pest monitoring and management activities,
inspection of visitor accommodations operated by the concessionaire, and dissemination of
information about Hantavirus and other similar diseases.

Hantavirus is a potentially severe disease of the lungs that is transmitted to people from insects
or other animals. The outbreak at Yosemite was caused by a strain carried by wild deer mice and
shed in their feces, urine, and saliva. Nine of the 10 confirmed cases were linked to individuals
who had stayed in the “Signature” tent cabins in Yosemite’s Curry Village campground. In 2009,
the concessionaire, Delaware North Companies Parks and Resorts (DNC), “winterized” the 91
cabins by adding ceiling rafters and wall studs. Ridged foam insulation was fitted between the
wooden structural components. The infected deer mice built their nests within these insulated
walls.

NPS first learned of the outbreak in July 2012. On August 23, Yosemite was notified about rodent
nests found in the insulated walls. Yosemite relocated the guests and then permanently closed all
of the Signature tent cabins on September 26, 2012. As one of five National parks with a detailed
public health officer on staff, Yosemite led the NPS response with public health expertise
provided by NPS’ Office of Public Health. The California Department of Public Health (CDPH)
and the Centers for Disease Control and Prevention also provided Yosemite with support during
the outbreak.

Our inspection found that when the outbreak was identified, NPS mobilized to contain and
remediate it and to prevent further outbreaks. NPS conducted visitor outreach, established a
Hantavirus call center, issued press releases, held employee and community meetings, and sent
health alert notifications to healthcare communities and organizations. NPS also invited CDPH
officials to review the “winterization” plans for the replacement tent cabins that DNC proposed
to build. In addition, NPS increased its participation in monitoring, tent inspections, and
educating park visitors on Hantavirus.

We made recommendations to both NPS and Yosemite regarding NPS’ review, approval, and
inspection of visitor accommodations; pest monitoring activities; and visitor education. If
implemented, our recommendations may place NPS in a better position to prevent future
outbreaks.



                                                10
DOI,Tribes Implement Indian Land Consolidation Program
As part of our ongoing effort to monitor and evaluate the funding appropriated to DOI in the
Cobell v. Salazar settlement, OIG addressed the tribes’ interest to be involved in implementing
the Indian land consolidation program and the proper use of funding agreements.

In November 2011, OIG issued a report identifying both the challenges and efficiencies
presented by Federal and tribal government involvement in implementing Cobell’s land
consolidation provisions. The report discussed challenges in the areas of data access, data
integrity, and privacy concerns. We also acknowledged the administrative and technological
benefits provided by Federal involvement and the outreach and incentive benefits provided by
tribal involvement.

Most recently, OIG addressed a number of important issues for DOI to consider when providing
funding to tribes for Indian land consolidation. These issues included selecting the funding
instrument—either a grant, cooperative agreement, or procurement agreement; drafting a scope
of work that outlines specific responsibilities of the tribes and DOI; defining inherently
governmental activities to determine which activities, if any, can only be performed by
Government personnel; maintaining transparency when making single-source determination,
which eliminates the requirement for competition when seeking an award; soliciting legal review
from the Office of the Solicitor when developing new programs or policies that affect funding
allocations and when making complex awards; and monitoring requirements for Federal financial
assistance programs to promote good stewardship of awarded funds. OIG also provided sources
for further guidance on these matters to assist in DOI’s effort to provide funding to participating
tribes to implement portions of the land consolidation program.

AOC Enforcement Not Working as Intended
We inspected the Office of Surface Mining Reclamation and Enforcement (OSM) to ensure that
the Oklahoma Department of Mines (ODM) properly enforces Federal regulations requiring
coal-mining operators in Oklahoma to return mined lands to their preexisting topography, or
approximate original contour (AOC). We found that AOC enforcement in Oklahoma is not
working as intended; OSM has not been successful in getting ODM to ensure that operators
return land to AOC.

The Surface Mining Control and Reclamation Act of 1977 (SMCRA) established the AOC
requirement to ensure that land can still be used for its original purposes after mining operations
cease. ODM’s enforcement of AOC in Oklahoma is funded through a Federal grant, with OSM
providing monitoring, oversight, and other support.




                                                11
ODM’s enforcement of AOC has
been problematic for many
years. From 1983 to 1987, OSM
took over parts of the
enforcement program when it
found that ODM was not
adequately implementing the
program. In the 1990s, OSM
initiated another action, but
ultimately did not take over
enforcement; instead, it
established a 1-year probationary
period for ODM to correct its
deficiencies. More recently,
OSM’s 2010 National Priority
Review report on AOC named
Oklahoma as the primary surface
mining State with ongoing,
unresolved AOC problems.
Despite this history of issues,
OSM has consistently funded the
Federal grant that finances
ODM’s program.

OIG visited 8 of the
approximately 60 “inspectable”
mining units in Oklahoma. We
observed mines in various states
of reclamation, restoration, and
abandonment and learned that
coal-mining companies were not      An active mine site and equipment at
restoring lands after mining,       the Liberty 6 mining site in Oklahoma.
sometimes leaving behind large,
dangerous holes that prevented
landowners from using the lands
for their original purposes. Some
of the mines appeared to have
been abandoned, while others
did not meet reclamation
standards.
                                                 12
In addition, we found that the Ten-Day Notice (TDN) process, a key tool for notifying States of
mining violations and for beginning the enforcement process, is not functioning effectively in
Oklahoma. Under SMCRA, Federal inspectors must issue a notice of violation to a mine operator
if the State has been notified of a mining violation and failed to take appropriate action, or to
show good cause for failing to do so, within 10 days. In Oklahoma, TDNs have remained in
process or under appeal for much longer—in some cases well over a year—before a notice of
violation has been issued.

OIG made three recommendations to address AOC issues in Oklahoma: consider suspending the
Federal grant that funds the State enforcement program until Oklahoma complies with SMCRA,
improve the effectiveness of the TDN process, and bring the process into compliance with
established timeframes.

DOI Has Opportunity To Improve Travel Management Practices
DOI spends about a quarter of a billion dollars each year on travel, making management of travel
funds across DOI and its bureaus a priority. OIG audited DOI’s E-Government Travel Service
(ETS), GovTrip, use and monitoring based on limitations discovered during a prior evaluation.
Some of those limitations included DOI’s inability to freely access travel system reports from
GovTrip and uncertainty regarding the reliability of the data in those reports.

Since August 2007, DOI has used GovTrip under a task order from the U.S. General Services
Administration’s (GSA) master contract with Northrop Grumman for ETS. GSA’s master
contract establishes GovTrip’s general requirements, and DOI’s task order lays out other
requirements specific to DOI’s needs. GSA’s master contract was set to expire in November
2013, at which time DOI expects a new system to take the place of GovTrip under a new GSA
contract (ETS-2).

We assessed DOI’s implementation, use, and monitoring of GovTrip as a part of its overall travel
system. Our review of fiscal years 2009 and 2010 included testing more than 700 travel
vouchers, reviewing 300 charge card statements, and interviewing 100 travel personnel across
DOI. We found significant weaknesses in the design of the system and DOI’s management of the
travel process, presenting an opportunity for travel management improvements on a DOI-wide
basis.

We issued 1 report to DOI, 8 memorandum reports to the heads of each bureau, and 17 Notices
of Potential Findings and Recommendations to individual bureau offices, which detailed travel
management deficiencies found unique to each bureau or office.




                                               13
Whistleblower Protection
Training, Early Intervention Yields Positive Results

U.S. Fish and Wildlife Service
The Whistleblower Protection Enhancement Act of 2012 uniquely applies to DOI by affording
protection to whistleblowers who challenge scientific misconduct or disclose violations of
scientific integrity. We recently saw these protections tested in the U.S. Fish and Wildlife Service
(FWS) after three employees disclosed violations of scientific integrity. FWS supervisors
subjected the three employees to hostility, adverse action, and censorship.

We advised FWS senior management of the complaints and provided evidence of retaliation by
the employees’ supervisors. FWS did not address these complaints, and regional management
communicated poorly with the affected employees. In addition, regional management failed
to take meaningful action to mitigate the reprisal and delayed and deferred action on the
complaints, negatively impacting employee morale. By failing to act timely and appropriately,
FWS management signaled to their employees that making a protected disclosure comes
with consequences. Numerous FWS employees expressed fear of exercising their rights and
responsibilities after witnessing the treatment of their colleagues.

In response to FWS’s failure to act, we issued a management advisory to the Secretary on July
11, 2013, requesting immediate action on the complaints, but the employees are still waiting
for final resolution. On August 19, 2013, the FWS Director publicly expressed his gratitude to
the employees, citing that their courage and dedication to scientific integrity has helped FWS
ensure it continues to meet the highest standards. As a result of this issue, we have targeted anti-
retaliation training for FWS employees and supervisors in the affected region.

Bureau of Indian Affairs
We also received a reprisal complaint from a BIA employee who, after filing a complaint with
us, was harassed and threatened with an investigation. Subsequent to the initial complaint, BIA
management placed the employee on an indefinite, involuntary detail in a remote office and
assigned them no meaningful duties. We researched the initial complaint and contacted BIA
management responsible for the action. BIA management rescinded the action and restored the
employee to their position. By acting promptly to rescind the retaliatory action, BIA management
proved to its employees BIA would not tolerate retaliation.




                                                 14
Investigations
Former Tribal Chairman Convicted of Theft
In January 2011, the FBI informed OIG of allegations concerning theft of tribal funds by
members of the Mashantucket Pequot Tribal Nation after discovering that numerous credit card
purchases appeared to have personally benefited individual Council members. OIG and the
FBI jointly investigated Michael Thomas, the former Council chairman, and his brother Steven
Thomas for theft from an Indian tribal organization.

On January 4, 2013, Michael and Steven Thomas were indicted in the U.S. District Court for the
District of Connecticut on one count of theft from an Indian tribal organization and two counts of
theft from an Indian tribal government receiving Federal funds. On July 24, 2013, a Federal jury
found Michael Thomas guilty on all three counts. Steven Thomas faces the same charges.

Tribal CEO and Two Montana Contractors Charged in Separate Bribery
Schemes Involving USBR Water Project
OIG investigated a Chippewa Cree Tribe official and two Montana contractors for allegedly
engaging in bribery to obtain subcontracts for the Rocky Boys/North Central Montana Rural
Water System, a Federally funded construction project awarded to the Tribe by the Bureau
of Reclamation. We found that Chippewa Cree Construction Corporation’s Chief Executive
Officer, Tony Belcourt, who also served as the corporation’s contracting officer, awarded four
construction contracts totaling more than $700,000 to Hunter Burns Construction, LLC, to install
PVC pipe on one portion of the construction project.

Our investigation determined that in exchange for receiving Federal funding, Hunter Burns and
James Eastlick, Jr., the owners of Hunter Burns Construction, LLC, made significant payments
to Tony Belcourt and his wife, Hailey Belcourt, for their own personal use and benefit; Hunter
Burns Construction, LLC, paid Hailey Belcourt $135,000 in proceeds from progress payments
remitted against the contracts.

Our investigation also determined that Tammy Leischner, owner of T Leischner Consulting; her
husband, Mark Leischner; and her father, James Eastlick, Sr., bribed Belcourt with $163,000 in
exchange for a shipping contract to ship steel pipe from Denver, CO, to the Rocky Boys/North
Central Montana Rural Water System job site. We determined that Belcourt authorized two
payments against the $495,000 contract in the amount of $660,000, an overpayment of $165,000.




                                               15
On September 20, 2013, a Federal Grand Jury in Billings, MT, indicted Tony Belcourt, Hailey
Belcourt, Hunter Burns, James Eastlick, Jr., and Hunter Burns Construction, LLC, on charges
of conspiracy, theft from an Indian tribal government receiving Federal funding, and bribery. A
second indictment charged Tony Belcourt, Hailey Belcourt, Mark Leischner, Tammy Leischner
and James Eastlick, Sr. on charges of conspiracy, theft from an Indian tribal government
receiving Federal funding, and bribery.

Contractors Guilty of Defrauding Oil Lease Investors
OIG and the FBI conducted a joint investigation into allegations that Mike Alfons Campa, an
employee from Domestic Energy Solutions, a private energy company, engaged in a fraudulent
oil lease investment scheme on the Fort Peck Indian Reservation. The Bureau of Indian Affairs
provided a copy of a March 7, 2011 letter from Campa, acting under the alias Mike Heretel, to an
investor in which Campa purported that a $4,000 investment entitled the investor to a 0.5 percent
ownership in Domestic Energy Solutions and all income generated from three specific oil leases
on the Reservation. Fort Peck Agency personnel confirmed that Campa did not own the oil leases
referenced in the letter.




Working oil rigs




                                               16
Our investigation determined that Campa and five others—Suzette Gulyas Gal, Andras Zoltan
Gal, Steven William Carpenter, Krisztian Zoltan George Gal, and Dana Yvonne Kent—solicited
approximately $675,406 from investors in connection with their fraudulent oil and gas leases on
the Fort Peck Indian Reservation. On September 5, 2012, the Federal Grand Jury in the U.S. Dis-
trict Court for the District of Montana indicted the six individuals, charging each defendant with
one count of conspiracy, one count of mail fraud, and one count of wire fraud.

Kent pleaded guilty on January 2, 2013, to one count of wire fraud. On April 2, 2013, she was
sentenced to 18 months in Federal prison, 1 year of supervised release, and ordered to pay
$101,490 in restitution jointly and severally.

On April 22, 2013, Mike Campa pleaded guilty to all three counts of the indictment. Campa
has not yet been sentenced. On May 1, 2013, a jury found Suzette Gulyas Gal, Andras Zoltan
Gal, and Carpenter guilty of all three counts in the indictment. The jury found Krisztian Zoltan
George Gal guilty of conspiracy but acquitted him of the mail and wire fraud charges.

On August 26, 2013, Suzette Gulyas Gal was sentenced to 10 years in Federal prison and 3 years
of supervised release and ordered to pay $675,406 in restitution jointly and severally with the
other defendants. She was also ordered to pay $4.5 million in restitution jointly and severally
with Campa and Krisztian Zoltan George Gal, whose sentencing hearing was postponed and
has not yet been rescheduled. On August 30, 2013, Andras Zoltan Gal was sentenced to 6 years
in Federal prison and 2 years of supervised release and ordered to pay $675,406 in restitution
jointly and severally with the other defendants. Carpenter was sentenced to 15 years and 8
months in Federal prison and 3 years of supervised release and ordered to pay $675,406 in
restitution jointly and severally with the other defendants.

Crow Tribe Employees Guilty of Multiple Charges of Theft and
Defrauding the Government
In a joint investigation with the FBI and the Internal Revenue Service Criminal Investigation
Division, OIG substantiated information that Crow Tribe Historic Preservation Office (THPO)
employees received payment for cultural monitoring duties directly from the companies for
whom the work was performed. Tribe officials indicated this improper practice circumvented
the procedure that requires the Tribe’s financial office to submit invoices to companies for the
cultural monitoring work performed, and the companies remit payment to the Tribe for those
services.

The investigation determined that former THPO Director Dale Drew Old Horn told companies
to pay the THPO employees directly for their cultural monitoring duties. The investigation also
determined that the majority of individuals who received direct payments were relatives of Dale
Drew Old Horn. In addition, we found that only two individuals were properly trained to conduct
cultural monitoring, and that two other individuals who claimed to be THPO employees were
paid for cultural monitoring duties but were never employed by THPO.

                                                17
Between July 17, 2009, and November 21, 2011, Dale Drew Old Horn, Allen Joseph Old Horn,
Danelle Lynn Old Horn, Martin Lloyd Old Horn, Shawn Talking Eagle Danforth, Larkin Troy
Chandler, Mark James Denny, and Frederick Paul Deputee, Jr. received direct payments totaling
more than $500,000 from companies for performing cultural monitoring duties on behalf of
THPO.
On November 14, 2012, a Federal Grand Jury in Billings, MT, indicted all eight individuals
involved in the scheme of conspiracy to defraud the Crow Tribe, mail fraud, and theft from an
Indian tribal organization. The Grand Jury also indicted Dale Drew Old Horn, Danelle Lynn Old
Horn, Allen Joseph Old Horn, Shawn Talking Eagle Danforth, Larkin Troy Chandler and Mark
Jason Denny on counts of theft from a program receiving Federal funding, and Allen Joseph Old
Horn on counts of extortion involving a Federally funded program and Federal income tax fraud.

Danelle Old Horn passed away on December 5, 2012, and all charges against her were
subsequently dismissed. On January 29, 2013, Denny, Deputee, Jr., and Chandler pleaded guilty
in U.S. District Court for the District of Montana. Denny and Chandler pleaded guilty to one
count of theft from a program receiving Federal funding, and Deputee, Jr. pleaded guilty to
larceny. On May 1, 2013, Denny was sentenced to 5 years of probation and ordered to pay
$73,045 in restitution, Chandler was sentenced to 5 years of probation and ordered to pay
$44,546 in restitution, and Deputee, Jr. was sentenced to 5 years of probation and ordered to pay
$6,130 in restitution.

On April 18, 2013, a Federal Grand Jury in Billings, MT, indicted Martin Lloyd Old Horn for
wire fraud, false statements, mail fraud, and larceny. The charges were filed because of a false
Federal Application for Student Aid (FAFSA) Martin Lloyd Old Horn filed in October 2011 and
payments he received from companies for purportedly performing services as a THPO Tribal
Monitor. He pleaded guilty on May 21, 2013, to false statements in connection with FAFSA
fraud and to mail fraud. On September 10 and September 11, 2013, Martin Old Horn was
sentenced to serve two concurrent 6 month terms in Federal prison and 3 years of supervised
release, and ordered to pay $21,830 in restitution.

On August 16, 2013, a jury found Dale Drew Old Horn, Allen Joseph Old Horn, and Shawn
Talking Eagle Danforth guilty of all counts in the indictment.

Employee Pleaded Guilty to Double-Payment Scheme
OIG investigated Kaylene Red Wolf, a former payroll clerk for Lodge Grass Public Schools,
after receiving information alleging that Red Wolf paid herself double salary payments over a
6-month period in 2012.




                                               18
We determined that from June 20, 2012, to August 21, 2012, Red Wolf issued herself double
salary payments by advancing herself a portion of her normal paycheck between scheduled
paydays and then paying herself her full salary on the scheduled payday. Red Wolf received an
extra $3,848 through this scheme. Red Wolf admitted that she was not entitled to receive the full
80 hours of pay on the scheduled payday when she had already advanced herself a portion of
those hours.

We also found that between November 4, 2011, and June 12, 2012, Red Wolf engaged in
fraudulent activities that amounted to $6,154 for her own benefit, including pay for hours not
documented as having been worked and overpayments for holiday pay.

On July 18, 2013, a Federal Grand Jury in Billings, MT, indicted Red Wolf on counts of theft
from a program receiving Federal funding and theft of Government money. Red Wolf pleaded
guilty on September 3, 2013, to theft from a program receiving Federal funding.

Fort Peck Community College Instructor Sentenced for Theft of
Federal Funds, False Claims
In a joint investigation with the U.S. Attorney’s Guardians Project, the FBI, and the Internal
Revenue Service Criminal Investigative Division, OIG investigated Jerome Seaman, a
mathematics instructor and grant administrator at the Fort Peck Community College in Poplar,
MT, for submitting false travel claims.

The investigation determined that Seaman submitted false claims for 12 trips he completed
between December 2009 and March 2011. Seaman often made alternate travel plans, failed to
attend trainings or conferences for which the travel was scheduled, and made claims against
Federal and college finances as if he had not engaged in personal activities while on travel.

Seaman fabricated and falsified hotel receipts to support his reimbursement claims. He received a
total of $19,359 in reimbursement of travel costs. He also received $9,668 in wages from the
college for time periods covered by these trips that he would not have been entitled to receive if
the college had known he traveled on what amounted to unauthorized personal leave.

Seaman pleaded guilty on March 29, 2013, in U.S. District Court for the District of Montana to
theft from an Indian tribal organization receiving Federal grants, a Federal False Claims Act
violation, and false writings affecting Federal monies.

On July 1, 2013, Seaman was sentenced to 6 months of incarceration, 1 year of supervised
release and a $300 special assessment. On September 25, 2013, the court amended the judgment
and ordered Seaman to also pay $26,649 in restitution.




                                               19
                        BIA Firefighter Indicted
                        for Theft of Federal
                        Funds, False Statements
                        OIG investigated Christopher
                        Menard, a Bureau of Indian
                        Affairs (BIA) firefighter at
                        Rosebud Agency in Rosebud, SD,
                        for using BIA-owned firefighting
                        vehicle credit cards twice in
                        December 2012 and once in
                        January 2013. Menard purchased
                        about $150 in fuel for his
                        personal vehicle and provided
                        false answers when questioned by
                        his supervisor about those
                        transactions.

                        Menard was indicted on June 12,
                        2013, on counts of theft of
                        Government property and false
                        statements. Menard pleaded
                        guilty on August 1, 2013, to theft.

                        BIE Employee Sentenced
                        for Stealing From Indian
                        Tribal Organization
                        OIG investigated Bureau of
                        Indian Education employee
                        Marcellina Tohonnie for
                        embezzling account funds from
                        Children Incorporated, an
                        international nonprofit
                        organization assisting needy
                        children in the United States and
                        abroad.


BIA firefighters




                   20
Our investigation determined that Tohonnie embezzled Children Incorporated account funds
sponsoring 47 American Indian students at Kaibeto Boarding School. As the school’s former
Children Incorporated program coordinator, Tohonnie accepted donations to purchase basic
necessities, like clothing and school supplies, for the children enrolled in the program. Instead,
Tohonnie embezzled approximately $25,000 to pay for personal expenses, including clothing,
salon visits, gifts, car repairs, and travel to Las Vegas, NV.

On April 23, 2013, Tohonnie pleaded guilty to one count of embezzlement from an Indian tribal
organization. Tohonnie was sentenced in the U.S. District Court for the District of Arizona to 5
years of supervised probation and ordered to pay $23,226 in restitution.

Former Tribal Employee Embezzled Almost $900,000
OIG, with the FBI and the Del Norte County District Attorney’s Office in Crescent City, CA,
jointly investigated Roland Raymond, the former director of the Yurok Tribe Forestry for
embezzling approximately $870,000 from the Tribe by submitting false invoices through Mad
River Biologists, who were contracted by the Tribe to conduct scientific assessments, surveys,
and environmental projects in support of Endangered Species Act projects.

On July 2, 2013, Raymond pleaded guilty in the U.S. District Court for the Northern District of
California to one count of conspiracy to commit embezzlement and theft from an Indian tribal
organization.

Former Tribal Employee Embezzled More Than $37,000
OIG investigated former Beaver Village Bookkeeper Colette Wiehl for theft of Federal funds.
Beaver Village is a Federally recognized tribe in Beaver Village, AK, funded by the Bureau of
Indian Affairs (BIA) through a tribal self-determination funds contract. Our investigation
determined that Wiehl embezzled approximately $37,359 between 2009 and 2012 through
unauthorized direct deposits and additional pay received from misreporting her hours. Wiehl
voluntarily provided a written statement admitting to the theft.

On June 7, 2013, Wiehl pleaded guilty to one count of theft from an Indian tribal organization.
Wiehl was sentenced on September 6, 2013, in the U.S. District Court for the District of Alaska,
to 5 years of probation and ordered to pay restitution in the amount of $37,359.

FWS Employee Sentenced for Theft of Government Property
OIG investigated Gabriela Lawson, a purchasing agent for the U.S. Fish and Wildlife Service
(FWS) at the Sonny Bono Salton Sea National Wildlife Refuge, in Calipatria, CA, after Lawson’s
Government credit card account was flagged for suspicious activity. Our investigation identified
approximately $30,123 in fraudulent purchases between December 2008 and May 2011. Lawson
voluntarily provided a written statement admitting to misuse of her Government-issued credit
card, and FWS subsequently terminated her employment effective September 12, 2011.



                                                 21
Lawson pleaded guilty to one count of theft of Government property. Lawson was sentenced on
June 24, 2013, in the U.S. District Court for the Southern District of California to 5 years of
probation and 250 hours of community service and ordered to pay restitution in the amount of
$30,122.

USBR Employee Indicted on Receipt and Possession of Child
Pornography
OIG investigated Bureau of Reclamation (USBR) employee Timothy A. Casey in response to a
report that a computer on the DOI network had visited several sites suspected of hosting child
pornography. We identified approximately 2,800 child pornography images and videos located in
the network traffic and digital evidence associated with Casey’s Government computer. We
provided the images for review and identification by the National Center for Missing and
Exploited Children, which identified over 80 known child victims of sexual assault. Casey
provided a written statement admitting that he had used his Government computer to search for
and view child pornography, which he knew was illegal, and immediately resigned from USBR.

On September 4, 2013, Casey was indicted on charges of receipt and possession of child
pornography. He was arraigned on September 23, 2013, in the U.S. District Court for the Eastern
District of Washington.

Former NPS Employee Sentenced After Pleading Guilty to Viewing
Child Pornography
OIG investigated Lino Sanchez, a National Park Service (NPS) employee, for viewing child
pornography after an automatic network screening tool alerted officials of an unauthorized use of
a Government computer. Our investigation determined that Sanchez used a Government
computer to browse the Internet to locate, view, and download child pornographic material.
Sanchez retired as soon as eligible upon investigation.

On January 25, 2013, Sanchez pleaded guilty to one count of accessing the Internet with intent to
view child pornography in the U.S. District Court for the Eastern District of Virginia. On July 12,
2013, Sanchez was sentenced to 24 months incarceration, probation for life, a $5,000 fine, and a
$100 special assessment.

Physics Professor Pleaded Guilty to False Claims
With the Defense Criminal Investigative Service, OIG jointly investigated Dr. Alfred Y. Wong, a
former University of California – Los Angeles (UCLA) physics professor, after receiving a
complaint from the Defense Contract Audit Agency (DCAA) regarding a DOI contract awarded
to the International Foundation for Science, Health, and the Environment, with which Wong was
associated.




                                                22
The investigation substantiated that Wong, the Foundation president, submitted several false
claims to the Government and UCLA. The investigation revealed that Wong defrauded the
Federal Government on several Federal contracts between 2004 and 2008, including submitting
false invoices, directing employees to work on his personal property, falsifying information
provided to DCAA, defrauding UCLA, fraudulently billing the Government for work that was
never performed, converting Government property to his own, and billing the Government for
work unrelated to the Government contracts specifications.

On June 20, 2013, Wong pleaded guilty in the U.S. District Court for the Central District of
California to one count of making false, fictitious, and fraudulent claims.

Columbia Resource Conservation District Paid $107,000 To Fulfill
Settlement
OIG investigated the Columbia Resource Conservation District after a Bureau of Reclamation
(USBR) contracting officer asked OIG to review a $1.5 million cost proposal submitted by the
District to renew an ongoing contract with USBR. The review led us to question approximately
$500,000 of the District’s anticipated costs as unsupported. In addition, we determined that the
District overstated labor expenses on 26 invoices it submitted to USBR from July 2007 through
August 2009, resulting in a net overcharge of $43,957.

The District and the U.S. Attorney’s Office in Fresno, CA, negotiated a plea settlement, and on
June 18, 2013, the District issued USBR a check in the amount of $107,000 in fulfillment of the
settlement.

Bonding Company Owner Indicted on 23 Fraud-Related Counts
OIG led a team of eight law enforcement agencies—the U.S. Army Criminal Investigations
Division, the U.S. Air Force Office of Special Investigations, the U.S. Department of Defense
OIG, the U.S. Department of Transportation OIG, the General Services Administration OIG, the
U.S. Department of Homeland Security OIG, and the U.S. Department of Agriculture OIG—to
investigate Abel M. Carreon, owner of bonding company Tripartite Escrow Corporation (TEC),
after a Department of Transportation (DOT) employee reported that TEC pledged the same
collateral to support performance and payment bonds on several DOT contracts simultaneously.

The investigation determined that Carreon had pledged the same collateral for numerous
contracts within DOI and for other factions of the Federal Government without disclosing those
encumbrances. In addition, the collateral in question—shares of stock in several companies—
was only worth a fraction of what Carreon had claimed and those shares were ostensibly held by
three individual sureties that did not actually exist. The investigation determined that from
approximately April 2005 through May 2011, TEC bonded Government projects with fraudulent
bid bonds, payment bonds, and performance bonds, resulting in a loss of over $1 million to the
Government.



                                               23
On July 11, 2013, a Federal Grand Jury in the Eastern District of California indicted Carreon on
23 fraud-related counts, including 10 counts of mail fraud, 7 counts of wire fraud, 3 counts of
money laundering, 2 counts of aggravated identity theft, and 1 count of major fraud against the
United States. On July 17, 2013, Carreon was arrested while entering the country from Mexico,
where he had been living, and is awaiting trial.

NPS Contractor Indicted for Failure To Compensate Subcontractor
OIG investigated George Remini and Universal Contract Services, LLC, following receipt of an
allegation that Remini failed to pay subcontractors who painted the Longfellow House at
Washington’s Headquarters and Carriage House in Cambridge, MA, via a National Park Service
contract for $29,800.

On June 25, 2013, Remini was indicted on one count of theft by failure to make the required
disposition to entitled parties in the Rahway New Jersey Municipal Court. After failing to appear
at his July 12, 2013 court date, Remini was arrested on a bench warrant. A trial date is pending.

USPP Failed To Properly Account for Hundreds of Firearms
OIG assessed the management and supervision of the U.S. Park Police (USPP) firearms program
after receiving an anonymous complaint regarding potentially missing weapons. The assessment
revealed that USPP could not properly account for various weapons, including Government-
issued military-style rifles.

Issues concerning accountability, as well as problems with systemic mismanagement and
oversight of USPP’s firearms inventory, caused OIG to discontinue its efforts to prove or
disprove the initial allegations. Instead, we reviewed the USPP firearms management program
due to concerns that incomplete and inaccurate weapons inventories undermined USPP
accountability for all of its weapons and potentially reduced public trust.

Our inspections of USPP field offices revealed hundreds of handguns, rifles, and shotguns were
not accounted for on official USPP inventory records. We found that individuals appointed to
oversee the firearms program, including senior command officers, gave only minimal supervision
to officers and other program staff who had access to unassigned weapons. Our assessment
revealed years of inattention to administrative detail and management principles by USPP
leadership and management at all levels, undermining the practice of the basic tenets of property
management and supervisory oversight of the firearms program.

Our 10 recommendations, aimed at updating USPP firearms policies and conducting complete
inventories, could improve management of the USPP firearms program.




                                               24
Suspension and Debarment Program’s Use of Compliance and Ethics
Agreements
OIG’s collaboration with DOI to create an effective process for implementing compliance and
ethics agreements has resulted in improved compliance and ethics programs in companies that
have entered into these agreements with DOI. A compliance and ethics agreement is used in lieu
of suspension or debarment between a company or individual and an agency and typically
includes acceptance of responsibility for the conduct that gave rise to the agreement, a
requirement for a code of ethics, a training program for all employees, an audit and internal
control program, a compliance program, and a mechanism for reporting misconduct. Violating
the agreement provides an independent cause for debarment. The agreement often mandates the
appointment of a third-party monitor, who ensures compliance with the terms and spirit of the
agreement and internal control procedures.

One agreement recently concluded after a 3-year period illustrated the benefits of the compliance
and ethics agreement process. At the start of the agreement, the company had a decentralized
compliance and ethics program with no executive responsible for the company’s compliance and
ethics program and inconsistency regarding compliance requirements.

During the 3-year period, we reviewed the work of the third-party monitor as well as the
company’s adherence to the terms of the agreement. The company now has a well-integrated
compliance officer responsible for the development and maintenance of the company’s
compliance and ethics program, an enhanced culture focused on compliance and ethics, a robust
internal monitoring and audit program, written procedures for investigating and addressing
violations of corporate policy or law, and a well-developed training and education program. The
firm’s parent company recognized the value of this process for the firm and indicated it will now
implement the compliance and ethics program at the parent company.

Similarly, another firm with an ongoing compliance and ethics agreement has also indicated that
its parent company will implement the firm’s compliance and ethics program.

OIG continues its vigorous support of DOI and the Federal Government in excluding
nonresponsible parties from receiving Federal awards. At the same time, DOI and OIG efforts
can result in greatly enhanced compliance and ethical behavior within companies, while allowing
the companies to remain eligible for awards and preserving American jobs.




                                               25 Back to Top
Appendices

             I j \\
                                                                                                                                    Appendix 1
Investigations Statistical Highlights
April 1, 2013 - September 30, 2013

Investigative Activities
Cases Closed................................................................................................................................272
Cases Opened...............................................................................................................................302
Complaints Received From All Sources.......................................................................................362

Criminal Prosecution Activities
Indictments/Informations...............................................................................................................26
Convictions....................................................................................................................................19
Sentencings....................................................................................................................................16
   Jail..............................................................................................................................572 months
   Community Service.......................................................................................................250 hours
   Probation.................................................................................................................1,599 months
   Criminal Penalties.................................................................................................$55,446,784.88
Criminal Matters Referred for Prosecution....................................................................................28
Criminal Matters Declined This Period..........................................................................................10

Civil Investigative Activities
Civil Referrals...................................................................................................................................4
Civil Declinations..............................................................................................................................4
Civil Settlements..........................................................................................................$1,117,627.76

Administrative Investigative Activities
Personnel Suspensions.....................................................................................................2 (37 days)
Reprimands/Counseling....................................................................................................................9
General Policy Actions....................................................................................................................10
Contractor Suspensions...................................................................................................................11
Contractor Debarments...................................................................................................................20
Administrative Compliance Agreements..........................................................................................2
Voluntary Exclusion Agreements......................................................................................................1
Bureau Non-Responsive*.................................................................................................................9
   (3 BIA, 1 USBR, 4 NPS, 1 OS)


*Bureau Non-Responsive is a category indicating failure by a bureau to respond to a referral for administrative action.




                                                                       27
                                                                                                                                  Appendix 1
Statistical Highlights
Audit, Inspection, and Evaluation Activities
Reports Issued.................................................................................................................................51
  Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.................39
  Contract and Grant Audits.........................................................................................................10
  Single Audit Quality Control Reviews........................................................................................2

Audit, Inspection, and Evaluation Impacts
Total Monetary Impacts..................................................................................................$43,978,319
   Questioned Costs (includes unsupported costs)........................................................$28,245,670
   Recommendations That Funds Be Put to Better Use................................................$15,732,649

    Audit and Evaluation Recommendations Made......................................................................188
    Audit and Evaluation Recommendations Closed....................................................................186




                                                                      28
                                                                                     Appendix 2
Reports Issued During the 6-Month Reporting Period
This listing includes all audit, inspection, and evaluation reports issued during the 6-month
period that ended September 30, 2013. It provides the report number, title, issue date, and
monetary amounts identified in each report (* Funds Be Put to Better Use, ** Questioned Costs,
and *** Unsupported Costs).

Audits, Inspections, Evaluations, and Verifications

       Bureau of Land Management

              WR-IN-BLM-0013-2012
              Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
              Interior - Bureau of Land Management (05/21/2013)

              CR-EV-BLM-0001-2012
              Final Evaluation Report – Coal Management Program, U.S. Department of the
              Interior (06/11/2013)

              C-VS-BLM-0003-2013
              Verification Review of Recommendations from the May 4, 2009 Audit Report,
              “Bureau of Land Management – Mining Claimant Administration”
              (Report No. C-IN-BLM-0011-2008) (08/07/2013)

              WR-VS-BLM-0016-2013
              Verification Review – Recommendations for the Inspection Report, “Museum
              Collections: Preservation and Protection Issues with Collections Maintained by
              the Bureau of Land Management” (C-IS-BLM-0005-2010, January 2010)
              (09/27/2013)

              C-EV-BLM-0007-2011
              Final Evaluation Report – Bureau of Land Management’s Branch of National
              Acquisitions, National Operations Center (09/30/2013)

       Bureau of Ocean Energy Management

              WR-IN-BOEM-0007-2013
              Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
              Interior – Bureau of Ocean Energy Management (09/09/2013)

                                              29
                                                                           Appendix 2
     CR-EV-BOEM-0001-2013
     U.S. Department of the Interior’s Offshore Renewable Energy Program
     (09/25/2013)

Indian Affairs

     WR-IN-BIA-0005-2013
     Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
     Interior – Bureau of Indian Affairs (05/21/2013)

     WR-VS-BIA-0010-2013
     Verification Review of Recommendations for the Inspection Report, “Museum
     Collections: Preservation and Protection Issues with Collections Maintained by
     the Bureau of Indian Affairs” (C-IS-BIA-0004-2010, January 2010) (05/31/2013)

     WR-VS-BIA-0021-2013
     Verification Review of Recommendation for the Management Advisory Report,
     “Bureau of Indian Affairs’ Contract with the National Native American Law
     Enforcement Association Contract No. CBK00090002”
     (WR-EV-BIA-0015-2009, February 2010) (07/23/2013)

     WR-EV-BIA-0017-2013
     Management Advisory – Indian Land Consolidation: Proper Use of Funding
     Agreements with Tribes (07/25/2013)

     VI-VS-BIA-0003-2013
     Verification Review of Recommendations for the Report, “ONDCP [Office of
     National Drug Control Policy] Performance Summary Report – BIA”
     (Report No. ER-IN-BIA-0014-2009) (08/06/2013)

Multi-Office Assignments

     C-VS-MOI-0005-2013
     Verification Review of Recommendations for the Inspection Report, “Department
     of the Interior (DOl) Fuels Consumption Data is Incorrectly Reported”
     (C-IS-MOI-0008-2008) (06/06/2013)




                                    30
                                                                            Appendix 2
     ER-IN-MOA-0013-2011
     Final Audit Report – Management of the Coastal Impact Assistance Program,
     State of Mississippi (06/27/2013)
     *$13,240,424 **$22,876,754 ***$2,549,598

     ER-IN-MOA-0015-2011
     Final Audit Report – U.S. Department of the Interior’s Landscape Conservation
     Cooperatives (06/27/2013)

     WR-VS-MOA-0018-2013
     Verification Review of Recommendations for the Evaluation Report, “Evaluation
     of the Department of the Interior’s Accountability of Desktop and Laptop
     Computers and their Sensitive Data” (WR-EV-MOI-0006-2008, April 2009)
     (08/13/2013)

     WR-IN-MOA-0006-2011
     Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
     Interior (09/09/2013)

     X-AT-MOA-0006-2013
     Independent Accountants’ Report on Applying Agreed-Upon Procedures for the
     U.S. Department of the Interior, U.S. Department of Education, U.S. Department
     of Transportation, National Aeronautics and Space Administration, Nuclear
     Regulatory Commission, National Science Foundation, and Social Security
     Administration (09/11/2013)

     ER-VS-MOA-0013-2013
     Verification of Recommendations for the Report, “Department of the Interior
     Roads Programs: The Dangers of Decentralization”
     (Report No. C-EV-MOA-0003-2009, February 2010) (09/20/2013)

     WR-EV-MOA-0002-2013
     Final Evaluation Report – Bureau of Indian Affairs and U.S. Fish and Wildlife
     Service Safety of Dams: Emergency Preparedness (09/24/2013)

National Park Service

     WR-IS-NPS-0009-2013
     Final Inspection Report – NPS Contractor Oversight of Visitor Tent Cabins at
     Yosemite National Park Involved in Hantavirus Outbreak (05/15/2013)
                                    31
                                                                             Appendix 2
      WR-IN-NPS-0008-2013
      Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
      Interior – National Park Service (09/11/2013)

      WR-VS-NPS-0014-2013
      Verification Review – Recommendations for the Inspection Report, “Museum
      Collections: Preservation and Protection Issues with Collections Maintained by
      the National Park Service” (C-IS-NPS-0008-2010, January 2010) (09/18/2013)

Office of Insular Affairs

      WR-VS-OIA-0020-2013
      Verification Review of Recommendations for the Evaluation Report, “Evaluation
      of Office of Insular Affairs’ Program Management”
      (WR-EV-OIA-0007-2008, May 2010) (08/07/2013)

      VI-RR-OIG-0001-2013
      Final Audit Report – Election System of the Virgin Islands’ Compliance With the
      Help America Vote Act of 2002 (08/08/2013)

Office of Natural Resources Revenue

      C-VS-ONRR-0006-2013
      Verification Review of Recommendations for the Evaluation Report, “Office of
      Enforcement, Office of Natural Resources Revenue”
      (CR-EV-MMS-0002-2010, January 2012) (05/30/2013)

Office of the Special Trustee for American Indians

      WR-VS-OST-0019-2013
      Verification Review of Recommendations for the Evaluation Report,
      “Whereabouts Unknown” (WR-IS-OST-0006-2009, June 2010) (08/21/2013)

      C-VS-OST-0008-2013
      Verification Review of Recommendations for the “Indian Land Consolidation
      Advisory: Need for an Appraisal Tracking System”
      (WR-EV-OST-0010-2011, July 2011) (09/25/2013)



                                     32
                                                                           Appendix 2
Office of Surface Mining Reclamation and Enforcement

     WR-IN-OSM-0014-2012
     Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
     Interior – Office of Surface Mining Reclamation and Enforcement (05/21/2013)

     IU-IS-OSM-0002-2013
     Final Inspection Report – Enforcement of Approximate Original Contour in
     Oklahoma by the Office of Surface Mining Reclamation and Enforcement
     (08/05/2013)

Office of the Secretary

     WR-VS-OSS-0012-2013
     Verification Review of Recommendations for the Evaluation Report, “Aviation
     Maintenance Tracking and Pilot Inspector Practices - Further Advances Needed
     (WR-EV-OSS-0005-2009, April 2009) (05/22/2013)

     VI-VS-OSS-0004-2013
     Verification Review of Recommendations for the Report, “Audit of the
     International Technical Assistance Program” (ER-IN-OSS-0009-2009, July 2010)
     (08/21/2013)

U.S. Bureau of Reclamation

     WR-IN-BOR-0004-2013
     Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
     Interior – Bureau of Reclamation (09/09/2013)

     VI-VS-BOR-0006-2013
     Verification Review – Verify Implementation of Recommendation in the “U.S.
     Department of the Interior Program Startup Inspection: Bureau of Reclamation
     WaterSMART Grant Program”
     (Report No. ER-IS-BOR-0012-2011, November 2011) (09/16/2013)




                                    33
                                                                                 Appendix 2
     U.S. Fish and Wildlife Service

          WR-IN-FWS-0012-2012
          Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
          Interior – U.S. Fish and Wildlife Service (05/21/2013)

          WR-VS-FWS-0011-2013
          Verification Review of Recommendations for the Flash Report,“Fish and Wildlife
          Service: Jackson National Fish Hatchery In Need of Immediate Action”
          (C-IN-FWS-0009-2007, May 2007) (06/11/2013)

          K-MA-FWS-0002-2013
          Management Advisory – Clarification Needed on U.S. Fish and Wildlife Service’s
          Guidance for Implementing the New Requirements of Title 50 of the Code of
          Federal Regulations, § 80.35, “Certification of License Holders”
          Report No. K-MA-FWS-0002-2013 (06/28/2013)

          WR-VS-FWS-0015-2013
          Verification Review of Recommendations for the Inspection Report, “Museum
          Collections: Preservation and Protection Issues with Collections Maintained by
          the Fish and Wildlife Service” (C-IS-FWS-0007-2010, January 2010)
          (07/01/2013)

     U.S. Geological Survey

          WR-IN-GSV-0006-2013
          Final Audit Report – GovTrip Use and Monitoring by the U.S. Department of the
          Interior – U.S. Geological Survey (07/18/2013)

Contract and Grant Audits

     Bureau of Land Management

          WR-CA-BLM-0013-2013
          Final Audit Report – Cooperative Agreement No. JSA071001/L08AC13913
          between the Utah Correctional Industries and the Bureau of Land Management
          (09/27/2013)
          **$1,076,464 ***$928,089


                                         34
                                                                            Appendix 2
Bureau of Ocean Energy Management

     K-CX-BOEM-0001-2013
     Final Audit Report – Interim Cost Audit Claimed by Sonoma Technology, Inc.,
     Under Contract No. M08PC20057 With the Bureau of Safety and Environmental
     Enforcement (05/14/2013)
     **$25,318 ***$213,597

Indian Affairs

     ER-CX-BIA-0005-2013
     Final Audit Report – Interim Cost Audit Claimed by Veteran Solutions, Inc.,
     Under Contract No. SBK00080062 With the Bureau of Indian Affairs
     (09/12/2013)
     **$47,651 ***$7,731

Office of the Secretary

     ER-CX-PMB-0003-2013
     Final Audit Report – Claimed Costs by Carole Houk International Under Contract
     No. D11PX18783 With the Acquisition Services Directorate (04/11/2013)
     **$6,207

U.S. Fish and Wildlife Service

     R-GR-FWS-0002-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Tennessee Wildlife Resources Agency From
     July 1, 2010, Through June 30, 2012 (05/17/2013)
     *$759,082 **$261,299

     R-GR-FWS-0003-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of South Dakota, Department of Game, Fish, and
     Parks, From July 1, 2010, Through June 30, 2012 (06/04/2013)




                                    35
                                                                                Appendix 2
          R-GR-FWS-0007-2013
          Final Audit Report – U.S. Fish and Wildlife Service Wildlife and Sport Fish
          Restoration Program Grants Awarded to the State of Washington, Department of
          Fish and Wildlife, From July 1, 2010, Through June 30, 2012 (06/24/2013)
          *$1,500,000

          R-GR-FWS-0005-2013
          Final Audit Report – U.S. Fish and Wildlife Service Wildlife and Sport Fish
          Restoration Program Grants Awarded to the State of Oregon, Department of Fish
          and Wildlife, From July 1, 2010, Through June 30, 2012 (07/26/2013)
          *$233,143 ***$58,976

          R-GR-FWS-0006-2013
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the District of Columbia, Department of the Environment,
          From October 1, 2009, Through September 30, 2011 (07/30/2013)
          **$11,039

          R-GR-FWS-0009-2013
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of Indiana, Department of Natural Resources,
          Division of Fish and Wildlife, From July 1, 2010, Through June 30, 2012
          (08/06/2013)

Single Audit Quality Control Reviews

     Multi-Office Assignments

          B-QC-MOA-0005-2013
          Quality Control Review of Ernst & Young’s Audit of the Government of the U.S.
          Virgin Islands for the Fiscal Year Ending September 30, 2010 (06/24/2013)

          B-QC-MOA-0003-2013
          Review of Audit Report and Related Audit Documentation of Daggett County for
          the Fiscal Year ended December 31, 2009 (09/13/2013)




                                         36
                                                                                         Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports With Questioned Costs*

                                 Number of Reports        Questioned Costs*    Unsupported Costs
 A. For which no                        4                         $2,187,717             $811,287
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        9                   $28,245,670           $3,757,991
 during the reporting
 period.
 Total (A+B)                                 13                  $30,433,387           $4,569,278
 C. For which a                              9                   $27,623,572           $3,218,896
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                             $27,623,572           $3,218,896
 recommendations
 that were agreed to
 by management.

 (ii) Dollar value of                                                    $0                    $0
 recommendations
 that were not agreed
 to by management.
 D. For which no                             4                    $2,809,815           $1,350,382
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




                                                     37
                                                                                Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports With Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports   Dollar Value
 A. For which no management                         2                           $23,390
 decision has been made by
 the commencement of the
 reporting period.
 B. Which were issued during                        4                    $15,732,649
 the reporting period.
 Total (A+B)                                        6                    $15,756,039
 C. For which a management                          5                    $15,747,535
 decision was made during the
 reporting period.

 (i) Dollar value of                                                     $15,747,535
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                 $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    1                            $8,504
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                    38
                                                                                       Appendix 4
Summary of Reports Over 6 Months Old
Pending Management Decision
This listing includes a summary of audit, inspection, and evaluation reports that were more than
6 months old on September 30, 2013, and are still pending a management decision. It provides
report number, title, issue date, and number of unresolved recommendations.

Audits, Inspections, Evaluations, and Verifications

       Indian Affairs

               CR-EV-BIA-0001-2011
               Final Evaluation Report – Oil and Gas Leasing in Indian Country: An Opportunity
               for Economic Development (09/24/2012); 2 Recommendations

               WR-EV-BIA-0001-2012
               Final Evaluation Report – Management of Social Services in BIA: Opportunity
               for Action (03/18/2013); 1 Recommendation

       Insular Area Reports

               HI-EV-GUA-0001-2011
               Final Report – Evaluation of Guam Power Authority (08/09/2012);
               1 Recommendation

               HI-EV-GUA-0002-2011
               Final Evaluation Report – Guam Public Safety (11/20/2012);
               3 Recommendations

               P-EV-FSM-0001-2007
               Kosrae State, Federated States of Micronesia: Property Accountability Process
               Needs To Be Improved (10/17/2007); 3 Recommendations

               VI-EV-VIS-0002-2009
               Evaluation Report – Energy Production in the Virgin Islands (12/28/2009);
               4 Recommendations




                                               39
                                                                                  Appendix 4
          VI-IN-VIS-0001-2010
          Audit Report – Administrative Functions - Legislature of the Virgin Islands
          (11/28/2011); 1 Recommendation

          VI-IN-VIS-0003-2009
          Final Audit Report – Capital Improvement Projects Administrative Functions -
          Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
          1 Recommendation; $443,300 unresolved

          VI-IS-VIS-0004-2009
          Inspection Report – Security Improvements at the Governor’s Private Residence
          (01/19/2010); 4 Recommendations; $490,000 unresolved

     U.S. Bureau of Reclamation

          ISD-AT-BOR-0002-2012
          Final Inspection Report – IT Security of the Hoover Dam Supervisory Control
          and Data Acquisition System (03/29/2013); 2 Recommendations

     U.S. Fish and Wildlife Service

          WR-EV-FWS-0003-2011
          Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
          Monitoring and Enforcement (01/09/2012); 2 Recommendations

Contract and Grant Audits

     Insular Area Reports

          P-GR-NMI-0003-2005
          Evaluation of Saipan Public Health Facility Project: Oversight of Capital
          Improvement Projects, Commonwealth of the Northern Mariana Islands
          (06/08/2007); 1 Recommendation




                                          40
                                                                           Appendix 4
U.S. Fish and Wildlife Service

     R-GR-FWS-0008-2004
     U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
     State of Idaho, Department of Fish and Game, From July 1, 2001, Through
     June 30, 2003 (09/30/2005); 15 Recommendations; $519,469 unresolved




                                    41
                                                                                     Appendix 5
Summary of Reports Over 6 Months Old Pending
Corrective Action
This listing includes audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without final corrective action.
These audits, inspections, and evaluations continue to be monitored by the Branch Chief for
Internal Control and Audit Follow-up, Assistant Secretary for Policy, Management and Budget,
for completion of corrective action.

       Bureau of Land Management

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010); 3 Recommendations

              C-IS-BLM-0018-2010
              Bureau of Land Management Wild Horse and Burro Program (12/13/2010);
              3 Recommendations

              CR-EV-BLM-0004-2010
              Final Evaluation Report – Bureau of Land Management’s Renewable Energy
              Program: A Critical Point in Renewable Energy Development (06/12/2012);
              2 Recommendations

              ER-IS-BLM-0003-2012
              Inspection- Bureau of Land Management: Meadowood Equestrian Facility
              (09/27/2012); 2 Recommendations

              K-CA-BLM-0004-2012
              Audit – Nevada Fire Safe Council Claimed Costs under Cooperative Agreements
              with Bureau of Land Management from January 1, 2008, Through
              February 29, 2012 (01/30/2013); 1 Recommendation

              CR-EV-BLM-0004-2012
              Final Evaluation Report – Bureau of Land Management’s Geothermal Resources
              Management (03/07/2013); 4 Recommendations



                                              42
                                                                            Appendix 5
Bureau of Ocean Energy Management

     CR-EV-MMS-0015-2010
     A New Horizon: Looking to the Future of the Bureau of Ocean Energy
     Management, Regulation and Enforcement (12/07/2010); 15 Recommendations

Indian Affairs

     WR-EV-BIA-0002-2010
     Evaluation – Coordination of Efforts to Address Indian Land Fractionation
     (01/04/2011); 6 Recommendations

     ER-IS-BIA-0010-2011
     Inspection – U.S. Department of the Interior Program Startup Inspection: Bureau
     of Indian Affairs Youth Initiative Program (11/10/2011); 1 Recommendation

     WR-EV-BIA-0009-2012
     Advisory – Indian Land Consolidation: Probate and Estate Planning Activities
     (08/16/2012); 2 Recommendations

     CR-EV-BIA-0001-2011
     Final Evaluation Report – Oil and Gas Leasing in Indian Country: An Opportunity
     for Economic Development (09/24/2012); 1 Recommendation

     WR-EV-BIA-0001-2012
     Final Evaluation Report – Management of Social Services in BIA: Opportunity
     for Action (03/18/2013); 6 Recommendations

Insular Area Reports

     V-IN-VIS-0004-2005
     Controls Over Video Lottery Terminal Operations, Government of the Virgin
     Islands (06/08/2007); 2 Recommendations

     P-EV-FSM-0001-2007
     Kosrae State, Federated States of Micronesia: Property Accountability Process
     Needs To Be Improved (10/17/2007); 5 Recommendations



                                    43
                                                                        Appendix 5
V-IN-VIS-0011-2006
Collection of Outstanding Taxes and Fees, Government of the Virgin Islands
(01/10/2008); 3 Recommendations

V-IN-VIS-0001-2007
Administrative Functions, Roy Lester Schneider Regional Medical Center,
Government of the Virgin Islands (07/28/2008); 4 Recommendations

P-EV-GUA-0002-2008
Tax Collection Activities, Government of Guam, Revitalized Tax Collection and
Enforcement Effort Needed (11/26/2008); 2 Recommendations

V-IN-VIS-0003-2007
U.S. Virgin Islands Workers’ Compensation Benefits at Risk (11/28/2008);
3 Recommendations

VI-IS-VIS-0002-2008
Final Evaluation Report Virgin Islands Police Department Evidence Integrity at
Risk (03/31/2009); 10 Recommendations

VI-IN-VIS-0003-2009
Final Audit Report – Capital Improvement Projects Administrative Functions -
Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
1 Recommendation

VI-EV-VIS-0002-2010
Evaluation Report – Administrative Functions of the Virgin Islands Government
Employees Retirement System (09/27/2011); 6 Recommendations

VI-IN-VIS-0001-2010
Audit Report – Administrative Functions - Legislature of the Virgin Islands
(11/28/2011); 10 Recommendations

HI-EV-GUA-0001-2011
Final Report – Evaluation of Guam Power Authority (08/09/2012);
4 Recommendations

VI-EV-VIS-0002-2011
Final Evaluation Report – Juan F. Luis Hospital and Medical Center (09/19/2012);
10 Recommendations
                                44
                                                                            Appendix 5
Multi-Office Assignments

     2002-I-0045
     Recreational Fee Demonstration Program – National Park Service and Bureau of
     Land Management (08/19/2002); 1 Recommendation

     C-IN-MOA-0049-2004
     Department of the Interior Concessions Management (06/13/2005);
     1 Recommendation

     C-IN-MOA-0007-2005
     U.S. Department of the Interior Radio Communications Program (01/30/2007);
     5 Recommendations

     C-IN-MOA-0004-2007
     Abandoned Mine Lands in the Department of the Interior (07/24/2008);
     1 Recommendation

     WR-EV-MOI-0008-2008
     Employee Relocation, U.S. Department of the Interior (09/21/2009);
     3 Recommendations

     C-IN-MOA-0010-2008
     Audit Report – Department of the Interior Museum Collections: Accountability
     and Preservation (12/16/2009); 9 Recommendations

     CR-IS-MOA-0004-2009
     Inspection Report – BLM and MMS Beneficial Use Deductions (03/08/2010);
     2 Recommendations

     C-IN-MOA-0001-2009
     Final Audit Report – Department of the Interior’s Management of Land
     Boundaries (07/16/2010); 1 Recommendation

     ER-EV-MOA-0012-2009
     Wildland Urban Interface: Community Assistance (07/30/2010);
     3 Recommendations




                                    45
                                                                            Appendix 5
     C-EV-MOA-0010-2010
     Final Evaluation Report – Portable Nuclear Gauges (09/28/2011);
     1 Recommendation

     WR-EV-MOA-0004-2010
     Final Evaluation Report – U.S. Department of the Interior’s Video
     Teleconferencing Usage (12/20/2011); 3 Recommendations

     C-IN-MOA-0013-2010
     Final Audit Report – Management of Rights-of-Way in the U.S. Department of
     the Interior (09/27/2012); 17 Recommendations

     C-EV-MOA-0009-2011
     Final Evaluation Report – Controls over Check Writing (10/31/2012);
     2 Recommendations

     C-IN-MOA-0010-2011
     Final Audit Report – Bureau of Land Management’s Helium Program
     (11/09/2012); 3 Recommendations

     ISD-EV-MOA-0001-2012
     Independent Auditors’ Performance Audit Report on the U.S. Department of the
     Interior Federal Information Security Management Act for Fiscal Year 2012
     (11/13/2012); 13 Recommendations

     X-IN-MOA-0002-2012
     Independent Auditors’ Report on the U.S. Department of the Interior Financial
     Statements for Fiscal Years 2012 and 2011 (11/15/2012); 6 Recommendations

     WR-EV-MOA-0015-2011
     Final Evaluation Report – Bureau of Land Management, National Park Service,
     and Office of Surface Mining Reclamation and Enforcement’s Safety of Dams:
     Emergency Preparedness (12/27/2012); 5 Recommendations

National Park Service

     C-IN-NPS-0013-2004
     The National Park Service’s Recording of Facility Maintenance Expenditures
     (01/26/2005); 2 Recommendations

                                    46
                                                                            Appendix 5
Office of Natural Resources Revenue

     CR-MA-ONRR-0003-2012
     Management Advisory – Civil Penalty Sharing Provisions of 30 U.S.C. § 1736 for
     Federal Oil and Gas Leases (05/01/2012); 1 Recommendation

Office of the Special Trustee for American Indians

     X-IN-OST-0005-2012
     Independent Auditors’ Report on the Office of the Special Trustee for American
     Indians Tribal and Other Trust Funds and Individual Indian Monies Trust Funds
     Financial Statements for Fiscal Years 2012 and 2011 (11/09/2012);
     1 Recommendation

Office of Surface Mining Reclamation and Enforcement

     ER-IS-OSM-0011-2011
     Inspection – U.S. Department of the Interior Program Startup Inspection: Office
     of Surface Mining Appalachian Regional Reforestation Initiative (11/10/2011);
     1 Recommendation

U.S. Bureau of Reclamation

     C-IS-BOR-0006-2010
     Inspection Report – Museum Collections: Preservation and Protection Issues with
     Collections Maintained by the Bureau of Reclamation (01/29/2010);
     1 Recommendation

     WR-EV-BOR-0003-2012
     Final Evaluation Report – Central Valley Project, California: Repayment Status
     and Payoff (03/26/2013); 2 Recommendations

     ISD-AT-BOR-0002-2012
     Final Inspection Report – IT Security of the Hoover Dam Supervisory Control
     and Data Acquisition System (03/29/2013); 3 Recommendations




                                     47
                                                                            Appendix 5
U.S. Fish and Wildlife Service

     C-IN-FWS-0009-2007
     Flash Report – Fish and Wildlife Service: Jackson National Fish Hatchery In
     Need of Immediate Action (05/08/2007); 1 Recommendation

     C-IS-FWS-0007-2010
     Inspection Report – Museum Collections: Preservation and Protection Issues with
     Collections Maintained by the Fish and Wildlife Service (01/29/2010);
     2 Recommendations

     NM-EV-FWS-0001-2010
     Evaluation – The National Bison Range (03/30/2011); 1 Recommendation

     WR-EV-FWS-0003-2011
     Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
     Monitoring and Enforcement (01/09/2012); 2 Recommendations

U.S. Geological Survey

     ER-CX-GSV-0002-2013
     Final Audit Report – Interim Cost Audit Claimed by ASRC Research and
     Technology Under Contract No. 08PC91508 With the U.S. Geological Survey
     (03/22/2013); 1 Recommendation




                                    48
                                                                                     Appendix 6
OIG Peer Reviews
Audits, Inspections, and Evaluations
The U.S. Office of Personnel Management (OPM) OIG conducted a peer review of our audit
organization for the period ending September 30, 2010. We received a peer review rating of
pass with no deficiencies noted. OPM OIG did, however, make three recommendations for
improvement, which we have addressed.

Investigations
The U.S. Department of the Treasury OIG conducted a peer review of our investigative function
for the period ending November 19, 2010. The peer review found that the system of internal
safeguards and management procedures for our investigative function complied with the quality
standards established by the Council of the Inspectors General on Integrity and Efficiency
and the “Attorney General’s Guidelines for Office of Inspectors General with Statutory Law
Enforcement Authority.”




                                              49 Back to Top
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies              2-25

Section 5(a)(2)            Recommendations for Corrective Action With Respect          2-25
                           to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)            Significant Recommendations From Agency’s Previous          42-48
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and             27
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                  N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            29-36

Section 5(a)(7)            Summary of Significant Reports                              2-25

Section 5(a)(8)            Statistical Table: Questioned Costs                         37

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put        38
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     39-41
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Significant Revised Management Decisions Made               N/A
                           During the Reporting Period

Section 5(a)(12)           Significant Management Decisions With Which                 N/A
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal   N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
                                                    50
Cross-References to the Inspector General Act
                                                                                   Page
Section 14(A)              Results of Peer Reviews Conducted by Another Office     N/A*
                           of Inspector General During the Reporting Period

Section 14(B)              Most Recent Peer Review Conducted by Another Office     49
                           of Inspector General

Section 15                 Outstanding Recommendations From Any Peer Review        N/A
                           Conducted by Another Office of Inspector General

Section 16                 Peer Reviews Completed of Another Office of Inspector   N/A
                           General During the Reporting Period or Previous
                           Recommendations That Have Not Been Fully Implemented




*N/A: Not applicable to this reporting period.


                                                  51 Back to Top
U.S. Department of the Interior
  Office of Inspector General
        1849 C St., NW.
      Mail Stop 4428, MIB
     Washington, DC 20240

  www.doi.gov/oig/index.cfm

     Phone: 202-208-4618
      Fax: 202-208-6062
